TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Report on Preaward Survey of Prospective
                      Contractor’s Accounting System


                                         September 2005

                             Reference Number: 2005-1C-167




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 26, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                           Daniel R. Devlin
                                 Assistant Inspector General for Audit (Headquarters Operations
                                 and Exempt Organizations Programs)

 SUBJECT:                        Report on Preaward Survey of Prospective Contractor’s Accounting
                                 System (Audit # 20051C0233)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s accounting system to
 determine whether the design of the system is acceptable for the award of a prospective contract,
 in accordance with the criteria set forth in Federal Acquisition Regulation (FAR) 53.1
 According to the DCAA, the contractor’s design of the accounting system in all material respects
 is considered acceptable for award of a prospective contract, in accordance with the criteria
 contained in FAR 53. The DCAA did not perform a comprehensive examination of the
 contractor’s overall accounting system and its related internal control. Accordingly, the DCAA
 expresses no opinion of the contractor’s system of internal control taken as a whole.
 The information in this report should not be used for purposes other than those intended without
 prior consultation with the Treasury Inspector General for Tax Administration regarding their
 applicability.




 1
     48 C.F.R. pt 1-53 (2002).
                     Report on Preaward Survey of Prospective Contractor’s
                                     Accounting System



If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                 2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
